OFFICE OF INSPECTOR GENERAL


Audit of the Inter-American
Foundation’s Financial
Statements for Fiscal Years 2008
and 2007
AUDIT REPORT NO. 0-IAF-09-003-C
November 14, 2008




WASHINGTON, DC
Office of Inspector General


Office of Inspector General

November 14, 2008

MEMORANDUM

TO:                 IAF President, Amb. Larry L. Palmer

FROM:                AIG/A, Joseph Farinella /s/

SUBJECT:            Audit of the United States Inter-American Foundation's Financial Statements for
                    Fiscal Years 2008 and 2007 (Audit Report No. 0-IAF-09-003-C)

With this memorandum, the Office of Inspector General is transmitting the audit report prepared
by the certified public accounting firm of GKA, P.C. (Independent Auditor) on the Financial
Statements of the United States Inter-American Foundation, (IAF) as of September 30, 2008
and 2007. We contracted with this Independent Auditor for auditing the financial statements.

The Independent Auditor expressed a clean opinion that IAF’s financial statements, including
notes thereto, presented fairly in all material respects its financial positions, the net cost of
operations, the changes in net position, and use of budgetary resources for the years ended
September 30, 2008, and 2007, in conformity with U.S. generally accepted accounting
principles.

The report contained no material weaknesses in the internal control over financial reporting and
no instances of material noncompliance with selected provisions of applicable laws and
regulations involving IAF’s financial management system. In addition, there were no instances
in which IAF’s financial management systems did not substantially comply with the requirements
of the Federal Financial Management Improvement Act of 1996 (FFMIA) Section 803(a).

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States; and the Office of Management and Budget
Bulletin (OMB) 07-04, Audit Requirements for Federal Financial Statements.

In connection with our contract, we reviewed the Independent Auditor’s related audit
documentation. Our review, as differentiated from an audit in accordance with the auditing
standards discussed above, was not intended to enable us to express, and we do not express,
an opinion on IAF’s financial statements.         We also did not express conclusions on the
effectiveness of IAF’s internal control, IAF’s substantial compliance with FFMIA Section 803(a),
or IAF’s compliance with other laws and regulations. The Independent Auditor was responsible
for the attached auditor's report dated November 7, 2008 and the conclusions expressed in it.
However, our review disclosed no instances where the Independent Auditor did not comply, in
all material respects, with the auditing standards discussed above.

The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and to the staff of GKA, P.C. during the audit. If you have questions concerning this report,
please contact Rohit Chowbay at (202) 712-1317.

U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
            INTER-AMERICAN FOUNDATION
FINANCIAL STATEMENTS AND INDEPENDENT AUDITORS' REPORT THEREON


      For the Fiscal Years Ended September 30, 2008 and 2007

                                TABLE OF CONTENTS


MESSAGE FROM THE PRESIDENT                                                   1


MANAGEMENT DISCUSSION AND ANALySIS                                           5

INDEPENDENT AUDITORS' REPORT ON FINANCIAL STATEMENTS                        16

BALANCE SHEETS                                                              18

STATEMENTS OF NET COST                                                      19

STATEMENTS OF CHANGES IN NET POSlTION                                       20

STATEMENTS OF BUDGETARY RESOURCES                                           21

NOTES To FINANCIAL STATEMENTS                                               22

INDEPENDENT AUDlTORS' REpORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING   35

INDEPENDENT AUDlTORS' REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS        37

                 Inter-American Foundation
                                          An Independent Agency of the U.S. Government


Message from the President

The Inter-American Foundation (lAF), an independent foreign assistance agency of the United
States government, provides grants to grassroots organizations in Latin America and the
Caribbean. Created in 1969 as an experimental program, the IAF responds to innovative,
participatory and sustainable self-help development projects proposed by grassroots groups and
organizations that support them. It also encourages partnerships among community
organizations, businesses and local governments directed at improving the quality of life for
poor people and strengthening democratic practices. To contribute to a better understanding of
the development process, the IAF shares its experiences and the lessons it has learned.

The IAF is governed by a nine-person board of directors appointed by the President of the
United States and confirmed by the U.S. Senate. Six members are drawn from the private sector
and three from the public sector. The board is assisted by an advisory council. A president,
appointed by the board, serves as the Inter-American Foundation's chief executive officer,
managing a staff of 47 employees based in Arlington, Virginia. The IAF is organized into three
offices; Executive, which houses the Office of the President, General Counsel and External
Affairs; Operations, which manages Evaluation, Financial Management, Publications, Human
Resources and Information Management; and the Program Office, which manages the grant
program.

The IAF plays a crucial role in U.S. foreign policy by delivering U.S. government assistance
directly to the poor of Latin America and the Caribbean and the groups that support them. Year
after year, the lAP's investment in the ideas and energy of ordinary people has yielded
extraordinary returns in the form of economic improvement for families and better living conditions
in communities throughout the hemisphere. Many of the grassroots leaders supported by the IAF
have gone on to play influential roles in democratic processes and have helped strengthen good
governance principles. No longer considered experimental, the lAP's responsive approach is
increasingly the model for overhauling top-down funding structures.

In FY 2008, as a result of lAP support, thousands of people in Latin America and the Caribbean:

•      benefited from the creation of new jobs;
•      were extended credit for income-generating small and micro- businesses;
•      received the skills and training necessary to increase their family incomes;
•      benefited from access to clean water, medical attention and enriched nutrition.

Many of the IAF's FY 2008 grants were awarded to organizations serving historically marginalized
and excluded groups including women, African descendants and indigenous communities as well as
persons with disabilities, bringing these groups into the development process and, eventually, into
their countries' economic and political life.

The IAF is working to maximize the investments made by other U. S. government agencies in the
region. IAF support to community groups initially can help strengthen partner organizations to
work with other U.S. government agencies later on, such as a cacao farmers' cooperative working
with USAID's alternative development program in Bolivia. IAF funding is also helping small-scale
producers position themselves to take full advantage of the MillelU1ium Challenge Corporation's
initiative in Nicaragua.

In a time of economic upheaval and increased demands on each tax dollar, the IAF is working to
leverage resources within Latin America itself. Through the IAF-initiated corporate network,
RedEAmerica, Latin American corporations and their corporate foundations are matching IAF
investments in grassroots development projects by at least two-to-one to lift individuals and
communities out of poverty and create civil society infrastructures that can insist on democratic
principles and hold governments accountable. Moreover, the entire network raises contributions
from a variety of sources. RedEAmerica, for example, recently negotiated with the Inter-American
Development Bank a $4.7 million agreement to finance self-help projects.

The IAF's successes are the results of (1) small amounts of U.S. taxpayer dollars carefully invested;
and (2) efficient and effective aid provided directly to the grassroots. In order to foster community
ownership and long-term sustainability, the IAF requires all grantees to contribute to their project in
cash or in kind, encourages them to partner with local governments and urges them to mobilize
funds to sustain their impact after the grant period. The IAF is nurturing community foundations as
development donors and reaches out to U.S.-based immigrants interested in supporting self-help
initiatives in their home communities.

The IAF's Strategic Plan for FY 2008 through FY 2013 flows from the lessons of its experience.
The Strategic Plan reflects the lAP's vision for a steady increase in international support for
grassroots development. The IAF's FY 2009 goals are identical to the longer-term goals in the
Strategic Plan and incorporate goals and performance measures developed with the Program
Assessment Rating Tool, which helped sharpen the IAF's focus on its development mission.

The IAF streamlines operations and lowers costs by outsourcing its procurement, accounting,
budget and information technology functions to the Bureau of the Public Debt (BPD). Under an
inter-agency agreement, BPD's Office of Information Technology in Parkersburg, West Virginia,
maintains a remote data center for IAF contingencies and continuity of operations. In May 2008, the
IAF again completed alU1ual contingency testing of remote access to alternate file, e-mail and grant
database servers at BPD's data center through the use of a Virtual Private Network (VPN)
configured on laptops assigned to essential employees, using card readers with PKI cards to meet
dual factor authentication requirements.

IAF met benchmarks established in the agency transition plan to Internet Protocol Version 6 (IPv6),
as required by the Office of Management and Budget. The key transition objective is to allow IPv6
and IPv4 hosts to interoperate. IAF established a dedicated TI internet circuit line between IAF and

                                                                                                      2
BPD. In lieu of replacing the IAF firewall, BPD is now IAF's managed Internet Service Provider
and provides managed firewall and security services for LAN and WAN, Web server hosting and
management, Internet and Internet Proxy access and IPv4 and IPv6 address assignment. All BPD
core network hardware fully supports IPv6. BPD tested an IPv4/IPv6 dual stack network to support
native IPv6 and 6t04 Internet traffic in a lab environment. IAF's IPv6 will be supported through
BPD's upstream Internet providers as well as through BPD's entire core network infrastructure.
This support of IPv6 will include IAF's wide area network.

As no public address is required to the IAF internal servers and resources, IPv4 will remain in place
as the preferred protocol of communication. All workstations are expected to remain IPv4 only.
Access to IPv6 Internet resources can be accomplished using BPDs Internet Proxy servers and their
6t04 gateways.

In response to the Homeland Security Presidential Directive (HSPD-12) to establish a common
identification standard for federal employees, the IAF signed an inter-agency agreement with the
General Services Administration (GSA) as its HSPD-12 services provider.

As mandated by the Federal Information Security Management Act (FlSMA), the IAF completed
the security re-certification and accreditation of the agency's enterprise network system and Grant
Evaluation and Management System (GEMS) in August 2007, in accordance with the Office of
Management and Budget Circular A-130, Appendix III; NIST Special Publication 800-37, Guide
for the Security Certification and Accreditation of Federal Information Systems, and IAF policy on
system accreditation. This accreditation will remain in effect for three years unless a major change
is made to the security controls, thereby requiring another review. Auditors from the USAID Office
of the Inspector General (OIG) completed the IAF's arumal independent assessment of the security
infrastructure supporting our enterprise network system and agency compliance with the Federal
Information Security Management Act (FISMA). A final positive audit report issued in September
2008 determined that the IAF is in full compliance with FISMA requirements.

The IAF is among the agencies supporting E-Gov. BPD has implemented the integration with the
Central Contractor Registration, the system used by suppliers as the sole repository for pertinent
data, including remittance information. Integration allows BPD and the IAF to maintain more
efficiently current data related to suppliers. The IAF is supporting the Financial Management Line
of Business (FMLOB) Initiative by using BPD's Oracle Federal Financials System and related
accounting and procurement services and BPD has been reporting FMLOB metrics for IAF for the
past year. The Oracle platform provides real-time, user-friendly financial reports. Since FY 2005,
the IAF has been using GovTrip, the government-wide E-Gov Travel system integrating online
booking with the automated authorization and vouchering process allowing travelers to attach
receipts electronicall y. The IAF continues to receive unqualified audits of its financial statements,
internal controls over financial reporting, and its compliance with laws and regulations.

I am pleased to introduce the IAF's FY 2008 financial statements, which reflect the IAF's quest to
become increasingly innovative while adhering to its core principles.



                                                                                                         3
The financial statements and performance results data are complete, reliable and in accordance
with the Office of Management and Budget (OMB) requirements and in conformity with
generally accepted accounting principles. The IAF has appropriate management controls in
place to ensure that all internal controls are operating in accordance with applicable policies and
procedures and are effective in meeting the requirements imposed by Federal Managers' Financial
Integrity Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA).

Signed:

 /s/

Amb. Larry L. Palmer
President




                                                                                                      4
MANAGEMENT DISCUSSION AND ANALYSIS

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots development programs. The IAF learns from
its experience, and uses the lessons learned to improve its own grant making decisions and to
advance the knowledge and success of development practitioners, donors, and policy makers.

Mission and Organizational Requirements

The Inter-American Foundation funds self-help and participatory development efforts in ways that
support democracy and strengthen the bonds of friendship and understanding in the Western
Hemisphere. The IAF supports initiatives proposed by the organized poor in Latin America and the
Caribbean to improve their quality of life. IAF staff, representing the American government and
people, maintain a supportive relationship with the grantees and their beneficiaries during the
course of projects and, frequently, beyond. The IAF's experiences are documented and shared with
a broad and diverse audience.

The IAF vision for the next five years is a steady expansion of support for grassroots development
and greater participation by the people of Latin America and the Caribbean in their countries'
economic development, social processes and political life. The IAF will continue to respond to the
best ideas from the region, empowering people by strengthening a vast infrastructure of community
groups and nongovernmental organizations that has become a highly effective and transparent
channel for productive foreign assistance. Because a broader resource base is crucial to an expanded
IAF program, the IAF will seek additional resources from various sources. The IAF will build on its
well-documented record of drawing local government, businesses, corporate foundations and
transnational communities into grassroots development. Through disseminating the lessons of its
investment to other donors, to policymakers and to American taxpayers, the IAF can continue to
lead the development community toward a realization that bottom-up development, in which the
organized poor playa leading role, is more effective than traditional top-down approaches.

The Fiscal 2008 Accomplishments

   In FY 2008 the Inter-American Foundation received an appropriation of $20.829 million for
   program and program support activities, which was supplemented by $5.084 million from the
   Social Progress Trust Fund for development grants and by $1.696 million in carry-over funds.
   The total budget was $27 .609 million. The IAF responded to the best development proposals it
   received with 76 new grants to grassroots and nongovernmental organizations. This represented
   $15.23 million; 25 supplements to grantees from prior years represented $1.84 million. Total
   funding of $17.07 million represents 100 percent of all development grant funds for FY-08. The
   IAF's CUlTent development portfolio consists of 251 active grants representing an investment of
   $62,344,740.

The FY 2008 funding actions are divided among primary program areas as follows:



                                                                                                      5
    FY08 GRANTS FUNDED BY PRIMARY PROGRAM AREA
 Program Area                   IAF$       Funding Actions
 Agriculture/food production $  6,453,417               30
 Enterprise development      $  4,704,280               32
 Education/training          $  2,149,278               16
 Corporate Social Investment $   1,055,745                3
 Cultural expression         $     942,606                7
 Environment                 $     881,063               5
 HealthIHousing              $     664,120               4
 Legal assistance            $     147,856                2
 Research/dissemination      $      69,685                2
Total                        $ 17,068,050              101



Accomplishment of the Goals and Objectives of the FY 2008 Program

The Inter-American Foundation achieved its goals as follows:

Goal One: Fund effective development projects that improve the quality of life as evidenced by
measurable indicators

       PerfOlmance Measure 1.1 (output): Grants funded in the fiscal year that target a better
       quality of life for beneficiaries as evidenced by measurable indicators.

       The IAF awarded 76 grants to grassroots and nongovernmental organizations in 18 countries
       and amended the awards of 25 grantees from prior years.

       Performance Measure (outcome) 1.2: Percentage of grantees whose funding ends in FY
       2008 that met or exceeded outcome goals specified for each project.

       Funding for 52 grantees ended during this fiscal year. Of grantees reporting by July, 69
       percent met or exceeded their goals.

Goal Two: Stimulate and encourage broader participation in the development process and broader
engagement in democratic practices.

       Performance Measure (output) 2.1: Grants awarded to groups and organizations of the
       marginalized and disenfranchised, including African descendants, indigenous peoples,
       persons with disabilities, women and young people.



                                                                                                  6
The IAF's FY 2008 program includes 49 new grantees working toward better conditions for
the marginalized and disenfranchised as defined in this measure. Prior grants to 10
organizations with this mission were supplemented with additional funding. Organizations
serving African descendants received 10 new grants and four supplemental grants. These
include six awards to Haitian organizations, funding made possible during this fiscal year
because of fewer restrictions on travel to this country. The prevalence of extreme poverty
makes Haiti a priority for future funding as well. New grants to 26 organizations and
supplemental grants to three continue the lAP's long history of supporting the self-help
efforts of indigenous peoples. Some of this funding will reach indigenous peoples new to
the IAF: Gmpo Sunu will work with native Ava GuaranI, Angaite Maskoy and Chamacoco
Paraguayans in the departments of Canindeyu, Presidente Hayes and Alto Paraguay;
Consejo Coordinador Nacional Indfgena expects to benefit 3,000 indigenous Nahuat, Lenca
and Cacawira Salvadorans. Three new grantees work in Mexico's heavily indigenous and
extremely poor Chaipas state.

Four new grants and one supplemental grant were awarded to organizations in Ecuador, EI
Salvador, Guatemala, Peru and Paraguay that will help individuals with disabilities live
independently, develop their eaming potentia] and raise awareness of their challenges and
aptitudes. Beneficiaries of the two Salvadoran grantees include farmers who became
disabled as a result of the civil war. Twelve new grants and two supplemental grants were
awarded to organizations serving young people through job training, employment
opportunities, support for their enterprises, improved early education and protective
services. New and supplemental funding to 24 organizations will enable them to conduct
programs supporting the efforts of women, especially women heads-of-households, to
become successful entrepreneurs, farmers, artisans and health-care providers and to develop
the skills and abilities necessary to assume positions of leadership in their organizations and
communities. Women beneficiaries include many who are indigenous, disabled, young and
of African descent.

Performance Measure (outcome) 2.2: Percentage of these grantees whose funding ends in
FY 2008 that met or exceeded outcome goals specified for each project.

As reported in Perfonnance Measure 1.2, of the 52 grantees that completed their grant
period during the first half of the fiscal year and reported by July, 69 percent had met or
exceeded their goals. Figures have not yet been disaggregated to reflect the success rate of
the grantees serving specific marginalized communities.


Performance Measure (output) 2.3: Events supported or organized to stimulate broader
participation in the development process or engagement in democratic practices.

The IAF sponsored the attendance of 475 individuals, including representatives of some 100
organizations, at workshops, conferences and training related to participation in the
development process or engagement in democratic practices.


                                                                                               7
Among these were events focused on African descendants. Global Rights Partners for
Justice and the IAF supported workshops and conferences targeting the participation of
African descendants in the Summit of the Americas process of the Organization of
American States, a dialogue with the OAS Secretary General and a discussion of official
efforts to combat discrimination. Seventeen African descendants from 11 countries attended
the IAF- and U.N-sponsored III Consulta Latinoamericana y Caribeila de Organismos de
Equidad Racial hosted in Quito by the Ecuadorian govemment. Afro-Ecuadorians and New
York Afro-Latinos participated in an exchange organized by Afrolatin@ Forum of New
York University and in other IAF-sponsored events. IAF grantee CIFANE hosted the New
Yorkers in the African descendent communities of Chota and Esmeraldas, Ecuador.
Representatives of Afro-Ecuadorian grantee AZUCAR spoke at National Council of La
Raza's annual conference held in July in San Diego. (The group performed its folk dances
outside the conference and received a donation of computer equipment from a community
organization.) The IAF- sponsored series "Women of Power" featured lectures by African
descendants at Hunter College, Simmons Institute for Leadership and Change, DePaul
University and Tulane University. As a result of the attendance of two African-descendent
travel grantees at an event sponsored by the IAF and Red de Mujeres Afro-Latinas, their
organizations received grants to support income-generating activities from When and Where
I Enter, a U.S. foundation.

To further the inclusion of persons with disabilities, the IAF supported blind participants at
the VI General Assembly Union Latinoamericana de Ciegos (ULAC) in Brazil; 12 women at
the first Regional Conference of Women with Disabilities held in the Dominican Republic;
six representatives at the general assembly of Disabled Peoples Intemational; and various
individuals at the general assembly of the Red Latinoamericana de Organizaciones de
Personas con Discapacidad y sus Familias (RIADIS) in Salvador, Bahia, where they worked
toward ratification of the U.N. Convention on the Rights of Persons with Disabilities.

IAF grantee exchanges included micro credit training offered by Boulder Institute for
Microfinance in Santiago for staff from Asociacion para el Desarrollo de la Costa Atlantica
"Pana Pana," the leading Nicaraguan indigenous organization, which is managing a loan
fund for the reconstruction of housing damaged by Hurricane Felix. Representatives of
Argentina's El Ceibal Asociacion Civil visited Bolivia's Fundacion para la Investigacion
Antropologica y el Etnodesarrollo to learn from its successful recovery of traditional
indigenous weaving techniques and designs as well as marketing and community museum
management. The week-long Valentine's Day celebration of National Museum of the
American Indian showcased former grantee EI Ceibo, a federation serving indigenous cacao
fan11ers, and its stunning development into Bolivia's premier exporter of cacao and
chocolate products.

Young Argentine photographers from Fundacion ph 15 para las Artes, whose program uses
photo arts to integrate young people from Buenos Aires' shantytowns into community life,
visited Fundacion Ser Paz and Movimiento Mi Cometa, grantees working with
impoverished youths in Guayaquil.


                                                                                             8
       Finally, the Canadian International Development Agency and the IAF co-sponsored a
       conference hosted by Canadian Foundation for the Americas to review health and education
       policy as related to African descendants, indigenous peoples and persons with
       disabilities in the Americas.

       Perfonnance Measure (outcome) 2.4: Percentage of participants in these events who say
       they will apply the knowledge gained to their work with development or civic engagement.

       Of 227 respondents who evaluated workshops and seminars that they had attended, 93
       percent reported they would apply the knowledge gained to their development work.


Goal Three: Draw more resources into grassroots development.

       Performance Measure (outcome) 3.1: Total verified dollar amount of in-kind and cash
       resources contributed or mobilized by grantees to further their efforts.

       By July 31, the IAF had received verified reports for the first six months of the fiscal year
       from 2S percent of the grantees required to submit them. According to their verified reports,
       these grantees contributed or mobilized $1.1 million, in cash and in kind, over and above the
       counterpart funds committed in their grant agreements.

       Additionally, the Latin American International Guarantee Fund (LAIGF), a pmtnership
       formed in 2004 between the IAF and the International Guarantee Fund (lGF) to serve
       microfinance institutions in Central America, increased its initial capital of $400,000 to
       $600,000 in 2006 and to $1 million in 2007. A low-interest loan of $2.1 million from the
       Spanish government and the transfer of $1 million in guarantees (of loans extended in El
       Salvador, Chile, Peru and Ecuador) from the IGF's portfolio will bring to $4.1 million the
       guarantees to be managed by LAIGF in 2008.

       Perfonnance Measure (output) 3.2: Number of companies and corporate foundations who
       commit to supporting grassroots development by becoming members of RedEAmerica.

       RedEAmerica has 57 dues-paying members in 12 countries, including Fundacion Haciendas
       del Mundo Maya and Fundaci6n Carlos F. Novella of Guatemala and Fundaci6n Loma
       Negra of Argentina, which joined in 2008.

       Performance Measure (outcome) 3.3: The dollar amount of resources invested in grassroots
       development through RedEAmerica.

       Under the tenns of three new Cooperative Agreements and one amended Cooperative
       Agreement, Asociaci6n Atocongo of Peru, Fundaci6n Pantaleon of Guatemala, EDESA of
       Costa Rica, and Fundaci6n Lann-Nobis of Ecuador have committed to mobilizing resources
       totaling $3.3 million to invest in grassroots projects. Lann-Nobis' commitment includes
       $300,000 in resources from Ecuador's Ministry of Tourism.

                                                                                                    9
Additionally, tbe Multilateral Investment Fund of tbe Inter-American Development Bank
approved a $4.7 million grant to RedEAmerica as part of an $8 million project, with
RedEAmerica members providing tbe remaining $3.3 million. The Spanish foreign
assistance agency (through the CODESPA foundation of Spain) has committed $1 million
toward the development of country-wide funds for grassroots development in Peru,
Guatemala and, pending approval, Colombia.

Performance Measure (output) 3.4: Activities to encourage the investment of resources in
transnational and local development partnerships.

The term transnational development refers to efforts in a given community that are
supported by immigrants from that community who are residing abroad. In this connection,
an IAF travel grant enabled IO Salvadoran women from U.S.-based hometown associations
and other immigrant organizations to discuss the role of migrant support for development
projects in the immigrants' communities of origin at the Fifth Intemational Convention of
Salvadorans in the World held in November in Los Angeles. IAF staff met with
representatives of the Haitian community in Miami to share information about the IAF's
program and to identify opportunities to increase diaspora support for grassroots
development in Haiti. In April, lAF staff participated in tbe annual meeting of the U.S.­
Mexico Border Philanthropy Partnership (BPP), held in Phoenix. BPP members work to
mobilize funds and engage new partners in improving the quality of life in the border region.

The term local development refers to grassroots efforts that involve the support of the local
govemment. IAF activities to further local development include the fourteenth annual Inter­
American Conference of Mayors and Municipal Officials. Held in June and co-sponsored by
the IAF, Florida International University and Miami-Dade County, the event drew 600
participants in its three days of workshops on public-private partnerships at the local level.

Additionally, the IAF organized several meetings in Honduras during the fiscal year to
explore the feasibility of "Opportunity Zones," a concept adopted by the Summit of the
Americas, promoted by the IAF and modeled on the U.S. Department of Housing and Urban
Development's renewal communities involving public- and private-sector support. The IAF
expects to receive by early next fiscal year proposals to co-fund housing-related projects in
Honduras. As a result of the IAF's outreach, the government of Guatemala proposed the
Organization of American States actively encourage Opportunity Zones as a development
option. The Guatemalan government has submitted to the U.S. Department of Housing and
Urban Development its proposal for technical assistance with an Opportunity Zone projected
for the area surrounding Lake Atitlan. At the suggestion of the U.S. Embassy in Brasilia, the
Brazilian Ministry of Planning approached HOD and the IAF about a possible collaboration
in its Amazon Basin development initiative. With support from RedEAmerica member
Asociaci6n Los Andes de Cajamarca (ALAC), the regional government of Cajamarca, Peru,
has organized a delegation to visit to the Renewal Community of Chattanooga and explore
the possibility of an Opportunity Zone in Cajamarca.


                                                                                            10
Goal Four: Document the lAF's investments and results.

       Performance Measure (output) 4.1: In-depth evaluations or analyses documenting the impact
       of closed projects.

       The lAF evaluated 11 projects funded in Brazil since 1972. The findings will be shared with
       the Program Office for possible future application.


Goal Five: Disseminate the IAF's experiences and approach.

       Perfonnance Measure (output) 5.1: Publications produced that disseminate the IAF's
       experiences and approach.

       lAF printed its 2007 annual report and Grassroots Development 2008 in English and
       Spanish and distributed them to subscribers and other interested readers. These publications
       were also posted to the IAF Web site in English, Spanish and Portuguese. This year's
       joumal included longer articles by fewer authors covering past and current grantees that,
       with modest IAF support, impressive energy and relentless dedication have transformed
       agriculture, launched cooperative enterprises and engaged with government to put in place
       the infrastructure necessary to economic development. "Business Social Engagement in
       Latin America: The New Alliance for Progress," a special section by Lester Salamon of
       Johns Hopkins University, reported his findings on the role of the corporate sector in
       supporting grassroots development. His full report will be posted on the IAFs new Web site
       expected to go live during the first quarter of fiscal 2009. The U.S. Government Printing
       Office is working on the redesign of the site featuring text that reflects the 2008-2013
       Strategic Plan and the goals articulated in PART. IAF's brochure has been similarly
       reconfigured.

       An unanticipated demand for Grassroots Development 2007, focusing on the efforts of
       African descendants, prompted a second printing of the Spanish version. The additional
       copies quickly "sold out" during fiscal 2008. David Bray's feature in that issue, "A Path
       through the Woods: 15 Years of Community Management in Mexico," was reprinted in
       Mexico Forestal, the digital magazine of the National Forestry Commission of Mexico.

       Perfolmance Measure (output) 5.2: Conferences, workshops, grantee exchanges and other
       learning activities using the IAF's grassroots development experiences.

       An extensive list of selected activities is included under Perfonnance Measures 2.3 and 3.4.

       A highlight among IAF's learning activities was the reinstatement of IAF's Grassroots
       Development Fellowships funding Ph.D. dissertation research by students who have
       advanced to candidacy at U.S. universities. After several years of preparation, the
       Fellowship Program became a reality in fiscal 2008 by which time all of the 11 Fellows had

                                                                                                   11
       reported to research sites in Latin America to undertake their projects for periods lasting up
       to 12 months. In February, staff from the IAF and from the Institute for International
       Education, lAP's contractor that administers the Fellowships, as well as members of IAF's
       Academia Review Committee, joined the Fellows in Cartagena, Colombia, for a productive
       mid-year examination of the Fellows' work and its consequences for grassroots
       development. In April, a second cycle of 12 Fellows was selected for the 2008-2009
       academic year.

       In December, the IAF co-sponsored the Corporate Social Responsibility Conference in
       Guatemala, where IAF staff and representatives of members of the Inter-American Network
       of Corporate Foundations and Actions for Grassroots Development (RedEAmerica), an IAF­
       initiated alliance, spoke on the importance of private-sector investment in grassroots
       development. In May, IAF staff and representatives of RedEAmerica members also spoke at
       the Council of Foundations Philanthropy Summit in Washington, D.C.


       Performance Measure (outcome) 5.3: Percentage of participants surveyed who will apply
       knowledge gained in IAF-sponsored learning activities to their development work.

       Out of 227 respondents who completed evaluations at four workshops and seminars, 93
       percent agreed or strongly agreed that they would apply the knowledge gained to their
       development work.


Goal Six: Build upon and enhance current efficiency measures.

       Performance Measure (efficiency) 6.1: Percentage ofIAF's total obligation spent on
       overhead: personnel, staff travel, office rent, phone services, information technology
       services, supplies, equipment and other general operating expenses.

       IAF estimates it will spend on overhead 28.7 percent of its fiscal 2008 operating budget.

       Performance Measure (efficiency) 6.2: Time spent in review and approval of grants
       proposals between receipt of proposals and the award of grants.

       The time spent on the review and approval of grant proposals has remained constant at 11
       months for the past three fiscal years. The process took 15 months in FY 2005.

Identification of Key Factors that Could Affect Achievement
of General Goals and Objectives

The IAF works in poor, often remote, areas lacking infrastructure, vulnerable to health problems,
weather and natural disasters, fragile agriculturally, and unstable politically. International
phenomena such as markets, wars, and foreign investment also may affect planned activities. Yet
only rarely do IAF-funded projects fail as a result of such factors.


                                                                                                    12
Federal Managers' Financial Integrity Act and the Federal Financial Management
Improvement Act

In accordance with applicable guidelines, the lAP submitted its Fiscal Year 2008 Assurances
Statement relating to requirements imposed by Federal Managers' Financial Integrity Act (FMFIA)
and the Federal Financial Management Improvement Act (FFMIA) to the USAID Office of the
Inspector General.

The IAF, in conjunction with BPD, analyzed and evaluated its systems of management control and
financial management under the FMFIA for the year ended September 30, 2008, according to the
procedures and standards prescribed by the Office of Management and Budget and the Government
Accountability Office. Based on this evaluation we found that our systems of management controls
provide reasonable assurance that: programs are free from waste, fraud and mismanagement; laws
and regulations are followed; our continuity of operations planning in critical areas is sufficient to
reduce risk to reasonable levels; and our performance information is reliable as defined in OMB
Circular A-ll, Section 232.10. We further found that the IAF's financial management systems, in
conjunction with those of BPD, meet the Federal government's management system objectives of
usefulness, timeliness, reliability and completeness, comparability and consistency, and efficiency
and economy. As a result, we conclude that there is reasonable assurance that the Inter-American
Foundation complies with Sections 2 and 4 of the FMFIA.

We have no open or new material weakness or nonconformance to report; we have not discovered
any material weakness or nonconformance during fiscal year 2008; and we do not have any
significant deficiencies or second tier issues.

In addition, we have found that, for the year ended September 30, 2008, the Inter-American
Foundation's administrative and fiscal accounting systems substantially comply with the
requirements of the FFMIA.




                                                                                                    13
                   Analysis of Financial Statements and Stewardship Information

Systems, Controls, and Legal Compliance

Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during the
year. Program costs of $24,977,263 reflected a decrease of $2,243,275 in resources used from the
FY 2007 amount of $27,220,538.

Personnel compensation and benefits increased from $4,972,012 in fiscal 2007 to $5,167,218 in
fiscal 2008 reflecting an increase of $195,206. In fiscal 2008, program-related Contractual Services
used $4,645,795 of IAF resources. The difference of $245,512 from fiscal 2007, which reported
$4,400,283 in resources used, reflects an increase of approximately 6 percent.



                       FY08 NET COST OF IAF CORE FUNCTIONS
                                     Operating
                                     Services               Personnel
             Other Program             4%                     20%
               Acti\iities
                  19%
                                                                    Rent
                                                                    3%




                                      Grants
                                       54%




Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for fiscal 2008 and
2007were $37,596,910 and $34,614,690, respectively. The difference of $2,982,220 is due to a net
increase in the Social Progress Trust Fund (SPTF) collections in FY 2008. The SPTF agreement
was amended during fiscal 2002 to provide all remaining funds to the IAF until they are exhausted,
in approximately 9 years. See Note 1 in the Financial Statements for funding source and Note 15 for
the end-of-year net position.


                                                                                                   14
Limitations on Financial Statements

These financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.s.c. 3513. While the statements have
been prepared from the books and records of the entity in accordance with the formats prescribed by
the Office of Management and Budget, the statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same books and records.




                                                                                                  15
          Independent Auditors' Report on Financial Statements


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.

We have audited the financial statements (balance sheets and the related
statements of net cost, changes in net position, and budgetary resources,
hereinafter referred to as "financial statements") of the Inter-American
Foundation (lAF), a U.S. Government Corporation, as of September 30, 2008
and 2007. These financial statements are the responsibility of the management
of the IAF. Our responsibility is to express an opinion on these financial
statements based on our audit.

We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and the Office of Management and Budget
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit
also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the IAF as of September 30, 2008
and 2007, and its net costs, changes in net position, and budgetary resources
for the years then ended in conformity with generally accepted accounting
principles.

Our audits were conducted for the purpose of forming an opmIOn on the
financial statements referred to in the first paragraph of this report as a whole.
The information presented in lAF Management's Discussion and Analysis



                                        16

(Overview) section is not a required part of the financial statements but is supplementary
information required by OMB Circular No. A-136, Financial Reporting Requirements.

Although we have read the information presented, such information has not been subjected to the
auditing procedures applied in the audits of the financial statements and, accordingly, we express
no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated
November 1, 2008 on our consideration of the IAF's internal control over financial reporting, and
on our tests of its compliance with certain provisions of applicable laws and regulations. These
reports are an integral part of an audit performed in accordance with Government Auditing
Standards, and, in considering the results of the audit, these reports should be read in conjunction
with this report.


/s/

GKA, PC

November 1, 2008




                                                17

                                          INTER-AMERICAN FOUNDATION
                                                  BALANCE SHEETS
                                           As of September 30, 2008 and 2007
                                                      (In Dollars)

                                                                                   2008              2007
Assets:
 Intragovemmental:
   Fund Balance With Treasury (Note 2)                                         $   37,596,910    $   34,614,690
   Prepayments (Note 3)                                                                14,159            33,125
  Total Intragovemrnental                                                          37,611,069        34,647,815

  Accounts Receivable (Note 4)                                                            178               895
  General Property, Plant and Equipment, Net (Note 5)                                                       183
  Prepayments (Note 3)                                                                                  111,449
Total Assets                                                                   $   37,611,247    $   34,760,342


Liabilities:
  Intragovernmental:
    Accounts Payable (Note 6)                                                  $     224,340     $     165,594
    Other (Note 6)                                                                    42,461            35,037
  Total Intragovemmental                                                             266,801           200,631

  Accounts Payable (Note 6)                                                          743,948           795,516
  Other (Note 6)                                                                     479,302           619,080
Total Liabilities                                                                   1,490,051         1,615,227

Net Position:
 Unexpended Appropriations - Other Funds                                           19,507,588        17,128,211
 Cumulative Results of Operations - Earmarked Funds (Note 15)                      16,937,111        16,328,662
 Cumulative Results of Operations - Other Funds                                      (323,503)         (311,758)
  Total Net Position                                                               36,121,196        33,145,115
Total Liabilities and Net Position                                             $   37,611,247    $   34,760,342




The accompanying notes are an integral part of these statements.

                                                                   18
                                          INTER·AMERICAN FOUNDATION

                                             STATEMENTS OF NET COST

                                    For The Years Ended September 30,2008 and 2007

                                                      (In Dollars)


                                                                                      2008             2007
Program Costs:
  Foreign Grant Program:
    Gross Costs (Note 9)                                                     $        24,977,263   $   27,220,538
    Net Program Costs                                                                 24,977,263       27,220,538

Net Cost of Operations                                                       $        24,977,263   $   27,220,538




The accompanying notes are an integral part of these statements.

                                                               19
                                                                               INTER-AMERICAN FOUNDATION
                                                                         STATEMENTS OF CHANGES IN NET POSITION
                                                                         For The Years Ended September 30, 2008 and 2007
                                                                                           (In DolJars)


                                                                                                2008                                                          2007
                                                                     Earmarked Funds      All Other Funds      Consolidated Total   Earmarked Funds     All Other Funds    Consolidated Total

Cumulative Results of Operations:
Beginning Balances, as Adjusted                                      $      16,328,662    $      (311,758)     $      16,016,904    $    19,767,528     $      (306,303)   $      19,461,225

Budgetary Financing Sources;
 Appropriations Used                                                                           18,450,523             18,450,523                             19,888,171           19,888,171
 Donations and Forfeitures of Cash and Cash Equivalents                          2,250                                     2,250                  50                                      50
 Other                                                                                          6,803,003              6,803,003                              3,564,919            3,564,919

Other Financing Sources (Non-Exchange):
 Imputed Financing Sources                                                                          318,191             318,191                                 323,077              323,077
Total Financing Sources                                                          2,250         25,571,717            25,573,967                  50          23,776,167           23,776,217
Net Cost of Operations                                                        (606,199)        25,583,462            24,977.263           3,438,916          23,781,622           27,220,538
Net Change                                                                    608,449               (11,745)            596,704           (3,438,866)            (5,455)           (3,444,321)

Cumulative Results of Operations                                            16,937,111           (323,503)            16,613,608         16,328,662            (311,758)          16,016,904

Unexpended Appropriations:
Beginning Balances, as Adjusted                                                                17,128,211             17,128,211                             17,898,210           17,898,210

Budgetary Financing Sources;
 Appropriations Received                                                                       21,000,000             21,000,000                             19,346,743           19,346,743
 Other Adjustments                                                                               (170,100)              (170,100)                              (228,571)            (228,571)
 Appropriations Used                                                                          (18,450,523)           (18,450,523)                           (19,888,171)       _ (19,888,171)

Total Budgetary Financing Sources                                                               2,379,377              2,379,377                               (769,999)            (769,999)
Total Unexpended Appropriations                                                    -           19,507,588             19,507,588                             17,128,211           17.128,211
Net Position                                                         $      16,937,111    $    19,184,085      $     36,121,196     $    16,328,662     $    16,816,453    $      33,145,115




  The accompanying notes are an integral part of these statements.

                                                                                               20
                                         INTER-AMERICAN FOUNDATION
                                   STATEMENTS OF BUDGETARY RESOURCES
                                   For The Years Ended September 30, 2008 and 2007
                                                     (In Dollars)

                                                                                     2008             2007
Budgetary Resources:
Unobligated Balance:
Unobligated Balance Brought Forward, October 1                               $        7,588,848   $   10,304,164
Recoveries of Prior Year Unpaid Obligations                                           1,998,327        1,009,835
Budget Authority
 Appropriation                                                                       21,000,000       19,346,743
     Collected                                                                        6,805,253        3,564,967
  Subtotal                                                                           27,805,253       22,911,710
Permanently Not Available                                                               170,100          228,571
Total Budgetary Resources                                                    $       37,222,328   $   33,997,138

Status of Budgetary Resources:
Obligations Incurred
  Direct                                                                             29,150,961       26,408,290
Unobligated Balance
  Apportioned                                                                           131,805        1,882,079
Unobligated Balance Not Available                                                     7,939,562        5,706,769
Total Status of Budgetary Resources                                          $       37,222,328   $   33,997,138

Change in Obligated Balance:
Obligated Balance, Net
  Unpaid Obligations, Brought Forward, October I                                     27,025,842       24,833,668
Obligations Incurred Net                                                             29,150,961       26,408,290
Less: Gross Outlays                                                                  24,652,933       23,206,281
Less: Recoveries of Prior Year Unpaid
  Obligations, Actual                                                                 1,998,327        1,009,835
Obligated Balance, Net, End of Period
 Total, Unpaid Obligated Balance, Net, End of Period                         $       29,525,543   $   27,025,842

Net Outlays:
Net Outlays:
 Gross Outlays                                                               $       24,652,933   $   23,206,281
 Less: Offsetting Collections                                                         6,805,253        3,564,967
  Net Outlays                                                                $       17,847,680   $   19,641,314




The accompanying notes are an integral part of these statements.

                                                               21
                           INTER-AMERICAN FOUNDATION

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2008 and 2007



Note 1.        Summary of Significant Accounting Policies
A.     Basis of Presentation

The financial statements have been prepared to report the financial posItIOn, net cost of
operations, changes in net position, and the status and availability of budgetary resources of the
Inter-American Foundation (lAF). The statements are a requirement of the Chief Financial
Officers Act of 1990, the Government Management Reform Act of 1994 and the Accountability
of Tax Dollars Act of 2002. They have been prepared from, and are fully supported by, the
books and records of the IAF in accordance with the hierarchy of accounting principles generally
accepted in the United States of America, standards approved by the principals of the Federal
Accounting Standards Advisory Board (FASAB), Office of Management and Budget (OMB)
Circular A-136, Financial Reporting Requirements, and IAF accounting policies which are
summarized in this note. These statements, with the exception of the Statement of Budgetary
Resources, are different from financial management reports, which are also prepared pursuant to
OMB directives that are used to monitor and control the IAF's use of budgetary resources.

The statements consist of the Balance Sheet, Statement of Net Cost, Statement of Changes in Net
Position, and the Statement of Budgetary Resources. In accordance with OMB Circular A-136,
the financial statements and associated notes are presented on a comparative basis. Unless
specified otherwise, all amounts are presented in dollars.

B.     Reporting Entity

The IAF, a U.S. government corporation, was established pursuant to part IV of the Foreign
Assistance Act of 1969 (22 U.S.c. 290f (a)). The IAF provides grants to support the initiatives
of non-governmental and community-based organizations in Latin America and the Caribbean to
implement their economic development and poverty reduction projects.

The management of the IAF is vested in a nine-person Board of Directors appointed by the
President of the United States. Six Board members are drawn from the private sector and three
from officers or employees of agencies of the U.S. Government concerned with Inter-American
activities. The Board appoints the lAP's president who acts as the chief executive officer.

C.     Budgets and Budgetary Accounting

Congress enacts appropriations to permit the IAF to incur obligations for authorized purposes.
In fiscal years 2008 and 2007, the IAF was accountable for the Social Progress Trust Fund
(SPTF), Gift Fund, and General Fund appropriations. The IAF recognizes budgetary resources
as assets when cash (funds held by the U.S. Treasury) is made available through the
Department of Treasury General Fund warrants and transfers from the Inter-American
Development Bank (IDB).



                                               22

                           INTER-AMERICAN FOUNDATION

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2008 and 2007



Note 1.        Summary of Significant Accounting Policies (continued)

D.     Basis of Accounting

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when
liabilities are incurred, without regard to receipt or disbursement of cash. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds.

E.     Revenue and Other Financing Sources

The IAF's grant program is funded by appropriation from the budget of the United States,
agreement with the Inter-American Development Bank covering the SPTF, and donations from
the private sector. No-year appropriations remain available until expended, while multi-year
appropriations are available for the period prescribed by the applicable statute. Appropriations
are used, within statutory limits, for programmatic, operating and capital expenditures for
essential personal property. Appropriations are recognized as a financing source when
expended. Appropriations expended for capitalized property and equipment are recognized as
expense when an asset is consumed in operations.

The IAF has an agreement with the IDB to receive funds from the SPTF to finance part of the
IAF's grant program. The lOB is an international financial organization established to promote
the economic and social development of member countries. The United States' participation in
lOB is authorized and governed by the Inter-American Development Bank Act (22 U.s.C. 283).
Within lOB, the United States established the SPTF in 1961 and provided appropriations to
SPTF through 1964. IDB was designated as the administrator for the SPTF and committed the
original SPTF appropriations to loans. Repayments of these loans are recycled by the lOB in
accordance with the original agreement and subsequent provision for additional loans, technical
cooperation programs, and financing of the Inter-American Foundation program.

Pursuant to a 1973 amendment to the Foreign Assistance Act of 1961, IDB provides funds to
finance social development projects. These funds are made available in U.S. dollars upon
request by the IAF, subject to denomination availability and exchange controls. In 2002, the
SPTF agreement was amended to make available all remaining funds until exhausted.

The IAF recognizes as an imputed financing source the amount of accrued pension and post­
retirement benefit expenses for current employees paid on its behalf by the Office of Personnel
Management (OPM).


                                               23

                           INTER-AMERICAN FOUNDATION

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2008 and 2007



Note 1.        Summary of Significant Accounting Policies (continued)

F.     Taxes

The IAF, as a Federal entity, is not subject to federal, state or local income taxes, and,
accordingly, no provision for income taxes has been recorded in the accompanying financial
statements.

G.     Fund Balances with Treasury

The U.S. Treasury processes cash receipts and disbursements. Funds with the Department of the
Treasury primarily represent appropriated funds and SPTF collections that are available to pay
current liabilities and finance authorized purchase commitments and SPTF grants.     The IAF
does not maintain cash in commercial bank accounts or foreign currency balances. Foreign
currency payments are made either by Treasury or the Department of the State and are reported
by the IAF in U.S. dollar equivalents. See Note 2 for additional information.

H.     Accounts Receivable

Accounts receivable consists of amounts owed to the IAF by other Federal agencies and the
public. Amounts due from Federal agencies are considered fully collectible. Accounts
receivable from the public include reimbursements from employees.               An allowance for
uncollectible accounts receivable from the public is established when either (l) based upon a
review of outstanding accounts and the failure of all collection efforts, management determines
that collection is unlikely to occur considering the debtor's ability to pay, or (2) an account for
which no allowance has been established is submitted to the Department of the Treasury for
collection, which takes place when it becomes 180 days delinquent. See Note 4 for additional
information.

I.     General Property, Plant, and Equipment, Net

The IAF's property, plant and equipment are recorded at original acquisition cost and are
depreciated using the straight-line method over the estimated useful life of the asset. Major
alterations and renovations are capitalized, while maintenance and repair costs are charged to
expense as incurred. The IAF's capitalization threshold is $50,000 for individual purchases and
$500,000 for bulk purchases. The useful life classifications for capitalized assets are as follows:

                  Description                              Useful Life (years)
                  ADP equipment                            3
                  Office furniture and equipment           10



                                                24

                           INTER-AMERICAN FOUNDATION

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2008 and 2007



Note 1.        Summary of Significant Accounting Policies (continued)

J.     Prepayments

Advance payments are generally prohibited by law. There are some exceptions, such as
reimbursable agreements, subscriptions and payments to contractors and employees. Payments
made in advance of the receipt of goods and services are recorded as prepaid charges at the time
of prepayment and recognized as expenses when the related goods and services are received.

K.     Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by the IAF as a
result of transactions or events that have already occurred. No liability can be paid, however,
absent an appropriation or SPTF funding. Liabilities for which an appropriation has not been
enacted or SPTF funds received are, therefore, classified as not covered by budgetary resources.
There is no certainty that the appropriation will be enacted. Additionally, the Government,
acting in its sovereign capacity, can abrogate liabilities. Liabilities not covered by budgetary
resources on the Balance Sheet are equivalent to amounts reported as components requiring or
generating resources on the Reconciliation of Net Cost to Budget.

L.     Accounts Payable

Accounts payable consists of amounts owed to other federal agencies and trade accounts
payable.

M.     Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance
in the accrued leave account is adjusted to reflect current pay rates. Liabilities associated with
other types of vested leave, including compensatory, restored leave, and sick leave in certain
circumstances, are accrued at year-end, based on the latest pay rates and unused hours of leave.
Nonvested leave is expensed when used. Any liability for sick leave that is accrued but not taken
by a Civil Service Retirement System (CSRS) covered employee is transferred to the Office of
Personnel Management upon the retirement of that individual. No credit is given for sick leave
balances upon the retirement of Federal Employee's Retirement System (FERS) covered
employees.

N.     Retirement Plans

The IAF's employees participate in the CSRS or the FERS. FERS was established by the
enactment of Public Law 99-335. Pursuant to this law, FERS and Social Security automatically
cover most employees hired after December 31, 1983. Employees hired before January 1, 1984
elected to join either FERS and Social Security or remain in CSRS.



                                               25

                            INTER-AMERICAN FOUNDATION

                           NOTES TO FINANCIAL STATEMENTS

                               September 30, 2008 and 2007



Note 1.        Summary of Significant Accounting Policies (continued)

N.     Retirement Plans (continued)

The IAF recognizes the imputed cost of pension and other retirement benefits during the
employees' active years of service. aPM actuaries determine pension cost factors by calculating
the value of pension benefits expected to be paid in the future and communicate these factors to
the IAF for current period expense reporting. aPM also provides information regarding the full
cost of health and life insurance benefits. The IAF recognized the offsetting revenue as imputed
financing sources to the extent these expenses will be paid by aPM.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and the IAF makes a
mandatory 1 percent contribution to this account. In addition, the IAF makes matching
contributions, ranging from 1 to 4 percent, for FERS eligible employees who contribute to their
TSP accounts. In accordance with Federal employee benefit policies, matching contributions are
not made to the TSP accounts established by CSRS employees.

FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, the IAF remits the employer's share
of the required contribution. The IAF's contribution to the employee pension plan was $494,309
for fiscal year 2008 and $481,473 for fiscal year 2007. In addition, the IAF costs for health and
life insurance were $414,969 for fiscal year 2008 and $412,238 for fiscal year 2007.

The IAF does not report on its financial statements information pertaining to the retirement plans
covering its employees. Reporting amounts such as plan assets, accumulated plan benefits, and
related unfunded liabilities, if any, is the responsibility of the aPM.

O.     Grant Disbursements and Administrative Expenses

Grant disbursements include payments under contractual obligations. Evidence of performance
is determined by review of periodic expenditure reports. All of the IAF expenditures for grants
over $35,000 are independently verified using the IAF's audit guidelines.          The IAF's
administrative expenses are funded solely by appropriated funds.

P.     Use of Estimates

Management has made certain estimates when reporting assets, liabilities, revenue, and
expenses, and in the note disclosures. The preparation of financial statements in conformity with
generally accepted accounting principles requires management to make assumptions that affect
the reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at
the date of the financial statements and the reported amounts of revenues and expenses during
the reporting period. Actual results could differ from those estimates.



                                                 26

                           INTER-AMERICAN FOUNDATION

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2008 and 2007



Note 1.        Summary of Significant Accounting Policies (continued)

Q.     Imputed CosUFinancing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An imputed
financing source is recognized by the receiving entity for costs that are paid by other entities.
The IAF recognized imputed costs and financing sources in fiscal years 2008 and 2007 to the
extent directed by OMB.

R.     Non-Entity Assets and Liabilities

The IAF did not hold any Non-Entity assets or liabilities as of September 30,2008 and 2007.

S.     Contingencies

Liabilities are deemed contingent when the existence or amount of the liability cannot be
determined with certainty pending the outcome of future events. The LAF recognizes liabilities,
in the accompanying balance sheet and statement of net cost, when it is both probable and can be
reasonably estimated. The IAF discloses contingent liabilities in the notes to the financial
statements when the conditions for liability recognition are not met or when a loss from the
outcome of future events is more than remote. In some cases, once losses are certain, payments
may be made from the Judgment Fund maintained by the U.S. Treasury rather than from the
amounts appropriated to the LAF for agency operations. Payments from the Judgment Fund are
recorded as an "Other Financing Source" when made. There are no contingencies that require
disclosure.

T.     Expired Accounts and Cancelled Authority

Unless otherwise specified by law, annual authority expires for incurring new obligations at the
beginning of the subsequent fiscal year. The account in which the annual authority is placed is
called the expired account. For five fiscal years, the expired account is available for expenditure
to liquidate valid obligations incurred during the unexpired period. Adjustments are allowed to
increase or decrease valid obligations incurred during the unexpired period but not previously
reported. At the end of the fifth expired year, the expired account is cancelled.

Note 2.        Fund Balance with Treasury

Entity fund balances include amounts that are available to pay liabilities and to finance
authorized purchase and grant commitments. Restricted unobligated fund balances represent the
amount of appropriations for which the period of availability for obligation has expired. These
balances are available for upward adjustments of obligations incurred only during the period for



                                                27

                          INTER-AMERICAN FOUNDATION

                         NOTES TO FINANCIAL STATEMENTS

                             September 30, 2008 and 2007




Note 2.       Fund Balance with Treasury (continued)

which the appropriation was available for obligation or for paying claims attributable to the
appropriations.

                                                               2008              2007
 Fund Balances:
  Appropriated fund                                     $ 20,659,799     $ 18,286,028
  Gift fund                                                                    33,694
  Social progress trust fund (SPTF)                       16,937,111       16,294,968
 Total entity funds                                     $ 37,596,910     $ 34,614,690
 Status of Fund Balance with Treasury:
  Unobligated balance includes SPTF
    Available                                           $    131,805         $  1,882,079
    Unavailable                                            7,939,562            5,706,769
 Obligated balance not yet disbursed                      29,525,543           27,025,842
 Total                                                  $ 37,596,910         $ 34,614,690

Note 3.       Prepayments

Prepayments are made to select government agencies and vendors in advance of receiving the
goods or service. Prepayment balances as of September 30, 2008 and 2007 were $14,159 and
$144,574, respectively.

Note 4.       Accounts Receivable

Accounts receivable balances as of September 30, 2008 and 2007 were $178 and $895,
respectively. Accounts receivable from the public are shown net of allowances for uncollectible
amounts.

Note 5.       Property, Plant and Equipment

The balance of Property, Plant, and Equipment is as follows:

Schedule of Property, Plant and Equipment as of September 30, 2008

                                         Acquisition     Accumulated        Net
                                            Cost        ~reciation       Book Value
Description
 ADP equipment                           $     27,000    $        27,000 $
 Office furniture                              37,987             37,987 -
Total                                    $     64,987    $        64,987 $



                                               28

                            INTER-AMERICAN FOUNDATION

                           NOTES TO FINANCIAL STATEMENTS

                               September 30, 2008 and 2007



Note 5.        Property, Plant and Equipment (continued)

Schedule of Property, Plant and Equipment as of September 30, 2007

                                         Acquisition       Accumulated           Net
                                           Cost            DeEreciation       Book Value
Description
 ADP equip ment                          $     27,000      $       27,000 $
 Office furniture                              37,987              37,804              183
Total                                    $     64,987      $       64,804 $            183

Note 6.        Liabilities

The accrued liabilities for the IAF are comprised of program expense accruals, payroll accruals,
and unfunded annual leave earned by employees. Program expense accruals represent expenses
that were incurred prior to year-end but were not paid. Similarly, payroll accruals represent
payroll expenses that were incurred prior to year-end but were not paid.

 Schedule of liabilities                                    2008                2007

 Liabilities covered by budgetary resources
   Intragovernmental
     Accounts Payable                                  $       224,340    $        165,594
     Payroll taxes payable                                      42,461              35,037
   Total intragovemmental                                      266,801             200,631
  Program expenses
     Rent                                                            -              14,207
     Staff travel, training, printing, equipment
      maintenance, supplies                                     52,279              10,967
     Postage and freight                                           330
     Maintenance of equipment                                   16,185              12,441
     Communications and mail services                            5,017               3,702
     Supplies & non-capitalized equipment                          329               6,706
     Local advisory service contracts for grantees             392,862             377,347
     Grant audits                                              165,460             145,624
     Misc. services, program                                     8,672               6,623
     Misc. services, program support                           102,814             217,899
  Total program expenses                                       743,948             795,516
     Payroll accrual                                           155,620             303,244
     Payroll taxes payable                                           -               3,000
  Total liabilities covered by budgetary resources          1,166,369            1,302,391
  Liabilities not covered by budgetary resources
     Unfunded leave                                           323,682              312,836
  Total liabilities                                    $    1,490,051     $      1,615,227


                                               29
                           INTER-AMERICAN FOUNDATION

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2008 and 2007




Note 7.        Commitments and Contingencies

In the course of its grant-making activities, the IAF has unliquidated grant obligations which, in
the absence of violations or cancellations of the grant agreements, will require disbursements.
Unliquidated grant obligations at September 30, 2008 and 2007 total approximately $25,966,032
and $22,939,082, respectively. As of September 30, 2008 and 2007, there were no obligations
due to canceled appropriations for which there is a contractual commitment for payment.

Note 8.        Undelivered Orders at the End of the Period

Statement of Federal Financial Accounting Standards No.7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states
that the amount of budgetary resources obligated for undelivered orders at the end of the period
should be disclosed. For the periods ended September 30, 2008 and 2007, undelivered orders
amounted to $28,359,173 and $25,723,450, respectively.

Note 9.        Program Costs

Costs by major budget object classification as of September 30, 2008 and 2007 are as follows:

 Budget object classifications                                2008             2007

   Personnel compensation                                $    3,874,565 $       3,691,203
   Personnel benefits other than pension, health, and
    life insurance                                              383,374           387,098
   Pension - CSRS                                               138,095           135,550
   Pension - FERS                                               356,214           345,923
   Health insurance                                             408,432           406,028
   Life insurance                                                 6,538             6,210
   Travel and transportation of persons                         563,478           450,053
   Transportation of things                                       9,766             8,243
   Rents, communication, utilities and misc. charges            709,283           699,340
   Printing and reproduction                                    251,131           230,976
   Other services                                             4,645,795         4,400,283
   Supplies and materials                                       149,054           183,712
   Equipment                                                     16,607            20,905
   Grants, subsidies, and contributions                      13,464,931        16,255,014
     Total                                               $   24,977,263 $      27,220,538

Note 10.       Liabilities Not Covered By Budgetary Resources

The liabilities on the IAF's Balance Sheet as of September 30,2008 and 2007, include liabilities
not covered by budgetary resources, which are liabilities for which congressional action is


                                               30

                            INTER-AMERICAN FOUNDATION

                           NOTES TO FINANCIAL STATEMENTS

                               September 30, 2008 and 2007



Note 10.       Liabilities Not Covered By Budgetary Resources (continued)
needed before budgetary resources can be provided. Although future appropriations to fund
these liabilities are likely and anticipated, it is not certain that appropriations will be enacted to
fund these liabilities. Unfunded FECA liability is an intragovernmental liability not covered by
budgetary resources. Other liabilities not covered by budgetary resources consist of unfunded
leave. Unfunded leave balances are $323,682 and $312,836 as of September 30,2008 and 2007,
respectively.

Note 11.       Imputed Financing Sources

The IAF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such benefits
are the responsibility of the administering agency, the OPM. For the fiscal years ended
September 30,2008 and 2007, imputed financing was $318,191 and $323,077, respectively.

Note 12.       Financing Sources - SPTF

The Reconciliation of Net Cost of Operations to Budget Note reconciles the financial Net Cost of
Operations with the Statement of Budgetary Resources. The lAP reports SPTF funds obtained
from the lOB as offsetting collections earned. The IAF had no exchange revenue in fiscal year
2008 or 2007. For fiscal year 2008 and 2007, the IAF received $6,803,003 and $3,564,919,
respectively from the lOB, which was reported on its SF-133 as funds received from SPTF
collections.

                                                         2008              2007
 SPTF cumulative results
  SPTF beginning balance                          $      16,294,968 $      19,692,527
  SPTF funds received                                       6,803,003       3,564,919
  Less: SPTF funds expended                       _         6,160,860       6,962,478
 SPTF fund carry forward                          $      1__flQ17,111
                                                              ,__     $    16,294,968

 Donations cumulative results
  Donations beginning balance                     $          33,694 $          75,000
  Donations received                                          2,250                50
  Less: Donations expended                        _          35,944            41,356
 Donations carry forward                          $
                                                  -----           o$           33,694

 Total SPTF and Donations                         $      16,937,111 $      16,328,662
  Less: cumulative results of operations
    all other funds                                        323,503            311,758
 Total cumulative results of operations
  for SPTF, Gift and Appropriated funds           .'\;
                                                  ~
                                                         16,613,608 $
                                                 -~~~....;..-
                                                                           16,016,904


                                                 31

                          INTER-AMERICAN FOUNDATION

                         NOTES TO FINANCIAL STATEMENTS

                             September 30, 2008 and 2007



Note 13.	      Budgetary Resource Comparisons to the Budget of the United
               States Government

Statement of Federal Financial Accounting Standards No.7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, calls for
explanations of material differences between amounts reported in the Statement of Budgetary
Resources (SBR) and the actual balances published in the Budget of the United States
Government (President's Budget). However, the Presidents Budget that will include FY08
actual budgetary execution information has not yet been published. The President's Budget is
scheduled for publication in February 2009 and can be found at the OMB Web site.
http://www.whitehouse.gov/omb The 2009 Budget of the United States Govelnment, with the
actual column completed for 2007 has been reconciled to the Statement of Budgetary Resources,
and there were no material differences.

Note 14.	      Operating Lease

The IAF occupies office space under a lease agreement, which is accounted for as an operating
lease. The IAF entered into a lease agreement that will expire on April 30, 2012. Lease
payments are increased annually based on the IAF's proportionate share of the building's
operating expenses and real estate taxes. The new agreement allows the IAF an abatement credit
in lieu of a build-out allowance that will be deducted from the monthly rent for the first 26
months of the lease. Total net rental expense for fiscal years 2008 and 2007 were $664,308 and
$646,338, respectively. Below is a schedule of future payments for the term of the lease:

                       Schedule of future operating lease payments
                       Fiscal Year                           Amount

                       2009                               $     704,413
                       2010                                     719,898
                       2011                                     735,770
                       2012                                     440,095
                       Total future payments              $   2,600,176

NOTE 15. EARMARKED FUNDS

            Schedule of Earmarked Funds as of September 30, 2008 and 2007

Balance Sheets as of September 30                                  2008         2007

Assets:
   Fund balance with Treasury                                  $ 16,937,111 $ 16,328,662
Total Assets                                                   $ 16,937.111 $   16,328.662



                                               32

                              INTER-AMERICAN FOUNDATION

                             NOTES TO FINANCIAL STATEMENTS

                                 September 30, 2008 and 2007



Note 15.         Earmarked Funds (continued)
                                                                              2008            2007
Liabilities: None
Net Position:
   Cumulative results of operations - Earmarked funds                    $ 16,937, III $ 16,328,662
   Total Net Position                                                        16,937,111       16,328,662
Total Liabilities and Net Position                                       $   16,937, III $ 16,328,662



Statements of Net Cost
For the Period Ended September 30
                                                                              2008            2007
Program Costs:
   Gross Costs                                                           $    6, J 96,804 $   7,003,834
   Less: Total Non Exchange Revenue                                           6,805,253        3,564,968
Net Cost of Operations                                                   $    (608.449)..$     3.438,866



Statements of Changes in Net Position
For the Period Ended September 30
                                                                              2008            2007

Net Position BegiIUling of Period                                        $ 16,328,662 $ 19,767,528
Net Cost of Operations                                                        (608,449)        3,438,866
Net Position End of Period                                               $   11>,937.11 I $ 16,328 ,662


Note 16.    RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

                                                                              2008             2007
Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations incurred                                                  $ 29,150,961     $ 26,408,290
   Less: Spending Authority From Offsetting Collections and Recoveries        8,803,580        4,574,802
   Obligations Net of Offsetting Collections and Recoveries                  20,347,381       21,833,488
   Net Obligations                                                           20,347,381       21,833,488
Other Resources
   Donations and Forfeitures of Property                                         2,250               50
   Imputed Financing From Costs Absorbed By Others                             318,191          323,077
    Net Other Resources Used to Finance Activities                           320,441      323,127
Total Resources Used to Finance Activities                              $ 20,667,822 $ 22,156,615
Resources Used to Finance Items Not Part of the Net Cost of Operations
    Change In Budgetary Resources Obligated For Goods,
        Services and Benefits Ordered But Not Yet Provided             $ (2,505,308) $ 1,493,549



                                                     33

                              INTER-AMERICAN FOUNDATION

                             NOTES TO FINANCIAL STATEMENTS

                                 September 30, 2008 and 2007



Note 16.	       RECONCILIATION OF NET COST OF OPERATIONS
                TO BUDGET (continued)


                                                                             2008          2007

   Resources That Fund Expenses Recognized In Prior Periods	                     (717)
   Budgetary Offsetting Collections and Receipts That Do Not Affect
       Net Cost of Operations
       Other                                                                 6,803,003     3,564,919
   Total Resources Used to Finance Items Not Part of the Net Cost of
 Operations                                                              $  4,298,412 $ 5,058,468
   Total Resources Used to Finance the Net Cost of Operations            $ 24,966,234 $ 27,215,083
Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
   Increase In Annual Leave Liability                                    $      10,846 $       5,377
   Total Components of Net Cost of Operations That Will Require or
       Generate Resources In Future Periods                                     10,846         5,377
   Components Not Requiring or Generating Resources:
   Depreciation and Amortization                                                    183         546
   Other                                                                                       (468)
   Total Components of Net Cost of Operations That Will Not Require or
       Generate Resources                                                           183           78
   Total Components of Net Cost of Operations That Will Not Require or
   Generate Resources In The Current Period	                                    11,029         5,455
   Net Cost of Operations	                                               $ 24,977,263 $ 27,220,538




                                                     34

                     Independent Auditors' Report on

                 Internal Control over Financial Reporting



Office of the Inspector General
u.s. Agency for International Development
Washington, D.C.


We have audited the financial statements (balance sheets and the related
statements of net cost, changes in net position, and budgetary resources,
hereinafter referred to as "financial statements") of the Inter-American
Foundation (IAF), a u.s. Government Corporation, as of, and for the year
ended September 30,2008 and 2007, and have issued our report thereon dated
November 1, 2007. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and, Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements.

In plaIming and performing our audit, we considered the lAP's internal control
over financial reporting by obtaining an understanding of the IAF's internal
control, determined whether internal controls had been placed in operation,
assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary
to achieve the objectives described in OMB Bulletin No. 07-04 and
Government Auditing Standards. We did not test all internal controls relevant
to operating objectives as broadly defined by the Federal Managers' Financial
Integrity Act of 1982, such as those controls relevant to ensuring efficient
operations. The objective of our audits was not to provide assurance on internal
control. Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not
necessarily disclose all deficiencies in internal control over financial reporting
that might be significant deficiencies or material weaknesses. Under standards
issued by the American Institute of Certified Pubic Accountants, a significant
deficiency is a control deficiency, or combination of control deficiencies, that
adversely     affects    the    Fund's      ability   to    initiate,   authorize,




                                       35

record, process, or report financial data reliably in accordance with generally accepted
accounting principles, such that there is more than a remote likelihood that a misstatement of the
Fund's financial statements that is more than inconsequential will not be prevented or detected
by the Fund's internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the Fund's internal control.

Because of inherent limitations in internal controls, misstatements, losses, or non compliance
may nevertheless occur and not be detected. However, we noted no matters involving the
internal control and its operation that we consider to be material weaknesses as defined above.

This report is intended solely for the information and the use of management of the Inter­
American Foundation (lAF), the Office of the Inspector General (OIG) of the U.S. Agency for
International Development, the Office of Management and Budget (OMB), and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.

/s/

GKA, PC

November 1, 2008




                                               36

                  Independent Auditors' Report on

                Compliance with Laws and Regulations



Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements (balance sheets and the related
statements of net cost, changes in net position, and budgetary resources,
hereinafter referred to as "financial statements") of the Inter-American
Foundation (IAF), a U.S. Government Corporation, as of, and for the years
ended September 30, 2008 and 2007, and have issued our report thereon
dated November 1, 2008. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and,
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirementsfor Federal Financial Statements.

The management of IAF is responsible for complying with laws and
regulations applicable to the agency. As part of obtaining reasonable
assurance about whether the financial statements are free of material
misstatement, we perfonned tests of IAF's compliance with certain
provisions of laws and regulations, noncompliance with which could have
a direct and material effect on the detennination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin
No. 07-04, including the requirements referred to in the Federal Financial
Management Improvement Act (FFMIA) of 1996. We limited our tests of
compliance to these provisions and we did not test compliance with all
laws and regulations applicable to the IAF.

The results of our tests of compliance with laws and regulations described
in the preceding paragraph exclusive of FFMIA disclosed no instances of
noncompliance that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04.

Under FFMIA, we are required to report on whether the IAF's financial
management systems substantially comply with the Federal financial
management systems requirements (FFMSR), applicable Federal


                                   37

accounting standards, and the United States Standard General Ledger at the transaction
level in accordance with FFMIA section 803(a) requirements. The Administrative
Resource Center, Bureau of Public Debt, performs the accounting and reporting functions
for the IAF. We are not the auditors of the Bureau of Public Debt and did not perform
tests of compliance with the FFMSR using the implementation guidance included in
Appendix D of OMB Bulletin No. 07-04.

Those tests were performed by other auditors whose report has been furnished to us. Our
report, insofar as it relates to FFMSR compliance, is based solely on the report of the
other auditors.

The report of the other auditors on the substantial compliance of the IAF with the
requirements of FFMSR disclosed no instances of substantial non compliance with the
FFMSR. Our audit tests disclosed no instances in which IAF did not substantially
comply with Federal accounting standards and the U.S. Standard General Ledger
requirements.

Providing an opinion on compliance with certain provisions of laws and regulations was
not an objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of management of the Inter­
American Foundation (lAF) , the Office of the Inspector General (OIG) of the U.S.
Agency for Intemational Development, the Office of Management and Budget (OMB),
and Congress, and is not intended to be and should not be used by anyone other than
these specified parties.


/s/

GKA, PC

November 1,2008




                                          38

